i

2

IN THE
SUPREME COURT OF THE UNITED STATES

JAMES PLAS SAMS,
PETITIONER,
V.

r-.j

i:
/"r
$ I'

'I fj ft[
L u J:

b;

V
r •'

£■

I-

l

i

l.-ii

■1:

. i—i-

Ll

lJ

JJ 'J L_’_3

CALIFORNIA DEPARTMENT OF CORRECTIONS AND REHABILITATION ) ET ALRESPONDENTS.

ON PETITION FOR WRIT OF CERTIORARI TO
COURT OF APPEALS FOR THE NINTH CIRCUII

FILED
FEB 1 6 2021
OFFICE OF THE CLERK
SUPREME COURT. U.S.

PETITION FOR WRIT OF CERTIORARI

JAMES PLAS SAMS
No. BB9787
P.O. Box 2199
Blythe, CA 92226

Petitioner in pro se

* >_•

V

i

QUESTION PRESENTED
The Constitution guarantees a right to expressive association
for activities protected by the First Amendment. Similarly,
the Constitution limits content-based regulations that prohibit
public discussion of•an entire topic. Petitioner and other inmates
filed group grievances that challenged constitutional violations
pursuant to California regulations. The grievances were
arbitrarily rejected and Petitioner filed a civil lawsuit. In
retaliation California banned the group grievance regulations
that had been in effect for 30 years. Did California's actions
violate the right of expressive association and constitute
content-based discrimination?

c,

LIST OF PARTIES

All parties do not appear in the caption of the case on the cover
page. Alist of all parties to the proceeding in the court whose
judgment is the subject of this petition is as follows:
California Department of Corrections and Rehabilitation;
Chelsea Armenta;
Captain W. Hawkins;
P. Birdsong;
P. Messerli;
R.W. Smith;
Natalie Fransham;
Ruben Jimenez;
Christina Bristow;
C. Tennison;
P. Ramos;

sw

v:-*

n

; w

's

TABLE OF CONTENTS
OPINIONS BELOW

1

JURISDICTION

1

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

2

STATEMENT OF THE CASE

3

REASONS FOR GRANTING THE WRIT

4

CONCLUSION

7
INDEX TO APPENDICES

v

Appendix A

Decision of the Ninth Circuit Court of Appeals

Appendix B

Decision of the United States District Court

Appendix C

Ninth Circuit denial of petition for rehearing

Appendix D

Cal. Code Regs, tit 15 §30&4.2 (Group Appeals)

Appendix E

CDCR pamphlet banning group appeals

"^S’' >»

TABLE OF AUTHORITIES CITED
CASES
Ashcroft v. Iqbal, 556 U.S. 662 (2009).............................

PAGE
7

Blaisdell v. Frappiea, 729 F.3d 1237 (9th Cir. 2013)
Broadrick v. Oklahoma, 413 U.S. 601 (1973)....................
Castro v. United States, 540 U.S. 375 (2003)...............
Erickson v. Pardus, 551 U.S. 89 (2007).............................

5
6
7
7
Lozman v. Cty. of Riviera Beach, 138 S. Ct. 1945 (2018)..7
Nieves v. Bartlett, 139 S. Ct. 1715 (2019)
7
Pell v. Procunier, 417 U.S. 817 (1974)....
4

'

Police Dep't. of Chicago v. Mosley, 408 U.S. 92 (1972)...5
Procunior v. Martinez, 416 U.S. 396 (1974).........
Ramirez v. Galaza, 334 F.3d 850 (9th Cir. 2003)
R.A.V. v. St. Paul, 505 U.S. 377 (1992)...............
Reed v. Town of Gilbert, 135 S. Ct. 2218 (2015)

4
5
6
6

Roberts v. U.S. Jaycees, 468 U.S. 609 (1984)...
Sorell v. IMS Health > Inc. 564 U.S. 552 (2011)

4
6

STATUTES AND RULES
28 U.S.C. §1254(1) . . .
Supreme Court Rule 10

1
4

5

OTHER
CALIFORNIA CODE OF REGULATIONS
Cal Code Reg., tit 15 §3084.2 (h).

2

Cal. Code Reg., tit 15 §§3480-3487

2

5

>01

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI

Petitioner respectfully prays that a writ of certiorari issue to
review the judgment below.

OPINIONS BELOW
For cases from federal courts:
The opinion of the United States court of appeals appears at
Appendix A to the petition and is unpublished.

The opinion of the United States district court appears at Appendix
B to the petition and is unpublished. **
** The magistrate judge findings and recommendations were destroyed
in a cell search. Attachment B, dismissal with leave to amend,) is
based on the same reasoning. Adopted by district judge.
JURISDICTION
The date on which the United States Court of Appeals decided
my case was September 10, 2020.

A timely petition for rehearing was denied by the United States
Court of Appeals on December 9, 2020

and a copy of the order

denying rehearing appears at Appendix C.

The jurisdiction of this Court is invoked under 28 U.S.C. §1254(1).

1

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
1. U.S. Const. Amend. I:
Congress shall make no law respecting an establishment of
religion, or prohibiting the free exercise therof; or
abridging the freedom of speech, or the press; or the
right of the people peaceably to assemble, and to petition
the government for a redress of grievances.

2.

California Code of Regulations, Title 15 §3084.j __(h) :
Group appeal. If a group of inmates/parolees intend to
appeal a policy, decision, action, condition or omission
affecting all members of the group, one CDCR Form 602,
Inmate/Parolee Appeal, shall be submitted describing the
appeal issue(s) and action requested, accompanied by a Form
602-G (08/09), Inmate/Parolee Group Appeal, which is
incorporated by reference, with the legible name,
departmental identification number, assignment, housing,
and dated signature of the inmate or parole who prepared
the appeal. Each page of the CDCR Form 602 must contain
the appeal issue, action requested, and a statement that
that all the undersigned agree with the appeal issue/action
requested.

3. California Code of Regulations, Title 15 §3^80-3487:
See Appendix E pamphlet banning group appeals.

2

r

STATEMENT OF THE CASE
On February 19, 2019, prison mail room staff confiscated an
"Eden Press" catalog from Petitioner, inmate Burciaga, and inmate
Ramirez. In response Petitioner along with the other inmates
filed a group appeal as the issue affected "all members of the
group" as allowed under Cal. Code of Regs., tit. 15 §3084.2(h).
In response and contrary to the regulations the appeals
coordinator rejected the appeal stating, "Upon review the issue
does appear to be of a similar nature; however as supporting
documentation demonstrates the event occurred to three (3)
seperate individuals versus the group collectively/as a whole."
(Complaint Supp., Exh. l).
Subsequently, any group appeal by any inmates no matter the
topic from arbitrary trust account deductions, inadequate law
library access, unconstitutional mass middle of the night strip
searches, and procedures that exposed inmates to COVID-19 were
arbitrarily rejected.
Petitioner and other inmates filed civil actions that alleged
violations of the First Amendment rights of expressive association
right to petition the government for the redress of grievances,
and retaliation. Within 30 days of these civil actions the
California Dep't. of Corr. & Rehab, enacted emergency regulations
to ban all group

appeals from all inmates in California. The

group appeal regulations had been in effect for more than 30 years.
The district court and court of appeal ruled there is a
failure to state a claim.

3

REASONS FOR GRANTING THE WRIT
I. The Court of Appeals has decided the important questions of
the Right to Petition and Expressive Association in a wav
that conflicts with decisions of this Court under
Sup* Ct. R. 10 (c)
The First Amendment guarantees the right to petition the
government for the redress of grievances. Accordingly, this Court
has held that ’’prisoners retain those First Amendment right of
speech not inconsistent with their status as prisoners or with
the legitimate penological objectives of the corrections system.”
Pell v. Procunier, 417 U.S. 817, 822 (1974).

Similarly, this Court has held:
”[A]n individual's freedom to speak, to worship, and petition
the government for the redress of grievances could not be
vigorously protected from interference by the State unless
a correlative freedom to engage in group effort toward those
ends were also guaranteed."
Roberts v. U.S. Jaycees, 468 U.S. 609, 618 (1984).

”[T]he right to associate for expressive purposes is not,
however, absolute. Infringment on that right might be justified
by regulations adopted to serve compelling state interests,
unrelated to the suppression of ideas,that cannot be achieved
through means significantly less restrictive of associational
freedoms." Roberts, at 623. See also Procunior v. Martinez,416
U.S. 396, 413 (1974) (Prison regulations that restrict First
Amendment rights are only justified if it "furthers an important
interest unrelated to the suppression of expression.").

4

In this matter the district court and Court of Appeals
cite an often copied and pasted case cited in virtually all
cases in the Circuit, Ramirez v. Galaza, 334 F.3d 850

860

(9th Cir. 2003) ("inmates lack a seperate constitutional
entitlement to a specific grievance procedure"). See Attachment
B, at 17-18. Moreover, the decision conflicts with, another
opinion Blaisdell v. Frappiea, 729 F.3d 1237, 1245 (9th Cir. 2013)
("inmate associational rights only extend to

groups engaged in

expressive activities").
Here, the appeals coordinators refusal to process all group
appeals infringed on the right of expressive association without
a legitimate penological interest. Moreover, CDCR's enactment of
regulations to ban all group appeals lacked any penological
interest. Similarly, there were less restrictive means to restrict
associational freedoms as the group appeal regulations had been
in effect for over 30 years.

II.

The Court of Appeals has decided the important question
of content-based discrimination in a way that conflicts
with decisions of this Court under Sup. Ct. R. 10 (c)
The First Amendment applicable to the States through the

Fourteenth Amendment

prohibits the enactment of laws "abridging

the freedom of speech." A government "has no power to restrict
expression because of its message, its ideas, its subject matter,
or its content." Police Dep't of Chicago v. Mosley, 408 U.S. 92,
95 (1972). Content-based laws-those that target speech based on
its communicative content-are presumptively unconstitutional and
may be justified only if the government proves that they are
5

narrowly tailored to serve compelling state interests.
R. A. V. v. St. Paul, 505 U.S. 377

395 (1992). Government

regulation of speech is content based if a law applies to
particular speech because of the topic discussed or the idea
or message expressed. Sorell v. IMS Health, Inc., 564 U.S. 552,
555 (2011).
"[T]he First Amendment's hostility to content-based regulation
extends not only to restrictions on particular viewpoints

but

also to prohibition of public discussion of an entire topic."
Reed v. Town of Gilbert

135 S. Ct. 2218, 2230 (2015).

In this matter prison officials within 30 days of lawsuits
that challenged arbitrary rejections of group appeals banned
all group appeals because of the motivating ideology of
expressive association,

The vast majority of prisoners are

afraid to file single appeals for fear of retaliation.
Petitioner is an apt example that barely survived C0VID-19,
with diabetes and hypertention, after Respondent Armenia and
others refused to single cell him when similarly situated high
risk inmates were. This in retaliation for grievances and civil
actions.
Here

the ban on group appeals may cause some citizens "to

refrain from constitutionally protected activity."
Broadrick v. Oklahoma, 413 U.S. 601, 612 (1973).

6

"[A]n official retaliatory policy is a particularly troubling
and potent form of retaliation, for a policy can be long term
and pervasive, unlike an ad hoc

on the spot decision by an

individual officer." Lozman v. Cty. of Riviera Beach, 138 S. Ct.
1945, 1954 (2018) .
"[A]s a general matter the First Amendment prohibits
government officials from subjecting an individual to retaliatory
actions for engaging in protected speech." Nieves v. Bartlett,
139 S. Ct.1715, 1722 (2019).
In this matter the California Dep't, of Corrections and
Rehabilitation embarked in a retaliatory policy to infringe on
the bedrock constitutional guarantee of the right to Petition.
This in effect leaves many inmates with no viable mechanism to
remedy prison injustices.
CONCLUSION
The opinions below may have overlooked this Court's precedents
requiring pro se pleadings to be liberally construed. Erickson v.
Pardus, 551 U.S. 89, 94 (2007) (per curiam); Castro v. United
States

540 U.S. 375, 381 (2003) (courts' have authority to recast

pro se litigants pleadings to "avoid unnecessary dismissal").
Petitioner's allegations "plausibly give rise to an entitlement
to relief." Ashcroft v. Iqbal, 556 U.S. 662, 679 (2009).
As the Petition raises questions of national importance
concerning First Amendment rights of prisoners and pro se litigants
the writ of certiorari should be granted.

= oZ/Ar/zv

Dated:

Respectfully submitted,
Plas Sams
7

